"   '




                        NATIONAL RAILROAD PASSENGER COlU'ORATION
                               O¥FICE 011' INSPECTOR GENERAL
                              INVESTIGATIVE CLOSING REPORT


        TITLE: Waste                                                   CASE NUMBERS: 08-067

        DATE OF REPORT: July 25, 2008

        REPORT PREPARED BY:


        BACKGROUND:

        On May 20, 2008, the Office of the InSllectlJr Gcnc,ral,
        received information from
        • • •, _            that he                              'ng $9659.30 from an Atltcch
             'a~::~~l~~~~~!~!I
             01         had been
                                 ;'II~s;e~:e:~k.~ir~~I~g by
                                                         re-imlJurselnellt from   Amtrak.
                                                    he felt the expenditures were exorbitant, were
                                                    Hnd were unsupported by docu[nentation or
                                              ml1.h·",, 1
        explanation. The invoices included an intcrnational trip to Copenhagen/S\vcden, and
        dO'!H:stic trips to Los Angclcs/San Diego and Las Vegas.

        SUMMARY OF INVESTIGATION:

            1. On June 12, 2008, the Agents received copies of the pcrtincnt scctions of the
               Alltech contract from PrOClll'ement. According to the contract these expenditures
                                                       Also on Junc       2008: in an interview

                                             it was teurned
                                   clarifi,catiion and for additional documentation.        admit1ed
                  to having a geneml kJlOwledge of Amtrak's policy on travel cxpenses, but 110
                  kuowledge of the policy requiring a company Vice President or Executive
                  COlllmittee member's approval for international travel. _          was also unsure
                  whether Amtrak's tmvel expense policy applied to contractors.               further
                  admitted he had no! read the Alltcch contract.

           2.
,   ..




              _              further provided the Agents with reasonable explanations tor the
              expenditures and additional documentation, which included a list of the names of
              the people attending the hosled meals. _also slated that although she was Ihe
              host of most of thesc mcals, she was unable to pay for the meals us she does not
              have a corporafe credit card or P-card. Therefore she requested that _     pay for
              the meals. _         did puy for the meals dming their Las Vegas trip with her
              pcrsonal credit card. _              said she has read the portions of the Alltech
              contract that pertains to her projects a"nd that these expenses do not exceed Ihe
              contract guidelines.




                                                                _s
         3. On July 21, 2008, the Agenls interviewed _                As n consultant for Alltech,
            _        said she prcparcs an expense report, which she submits to • • • • •
             According to                        's approval is required before          can submit
             the expense report to Alltech. With                       approval         submits the
           . expense report to Alltech.            ill turn prepares an invoice for re-imbursemcnt
             to be submitted to Amlrak, which again goes to _                     for her approval.
            _        said she has read Amtrak's policy on travel expenses and admitted that
             previous submissions ,had included expenses for alcohol, which she later removed
             from the invoices. _        further admitted not being aware of the requirement of
             getting a Vice President 01' Executive Committee member to approve intcl'llational
             Iravel. _



                           The RA found sevel'lll .
                                                        _'s
                            said she has not read the Alltech contract.

         4. Because of the discrepancies in
                                                                                    .

                                                     expense reporls which,were approved by
                          the RA examined the last five                reporls submitted by
                                                                                  had double
            billed Amtrak for a total amount of $81.40.                   was also unable to
            produce receipts for meals totaling $100.00.

         5.   1iIIiii,2.9i,.2.0110.9.,.a.l1l.a.n.a.e.l.n.el.lt.re.fi.
                                                  g
                                                                   'c.n.'a.I.I.va.s.s.cl.lt.to.
              reconullelldations:

                   o   Mmwgcmcnt should ensure that                make restitution to Amtrak foJ' the
                       donble billing mistakes in the amount $81.40 and possibly $100 for meals foJ'
                       which she provided no receipts.
                   o   Management should conduct truining for employees who' tmvel or me in an
                       approval position foJ' expense reports on Amtrak's Travel Policy , and
                       Reimbursable I Business Travel Expenses 11.48.0.
                        o Management should eonsidcr issuing a corporate credit card 01' P-card, with the
(,                        authorization to pay fol' hosted meals, to             so problems involving
                          eontractol' travel expenses might be minimized.

             6. On Februnry 11, 2009, tho RA received a written response frolll _                 in which he
                reported:
                    o He had counseled                       regarding policy and procedures for submitting
                         expense reports.               Wl'Ote that _"nnderstands thc policy and
                         has agreed to abide by it."
                    o                      will make full restitntion in the Sllln of $181.40 directly to
                         Accounting.
                    o _ s e n t an e-mail to all of his direct report employees (a) highlighting key
                         policies, (b) referring them to the policy detail, and (c) offering such tmining fol'
                       . cit he,' them 01' their employees'.
                    o                     was asked if she wanted a corporatc credit curd issued to hel', bnt
                         shc dcclincd.


         RECOMMENDATION:

         Based on the above facls case II 08-067 should be closed with no further actiOIl warrm,ted
         pending receipt of additional inforlllation.


         SUllervisor:

         Deputy Inspector Genei·itll Counsel: - - +-;/I76H-c__
                                                                                  D,,"    JI  "#Ii
                                                                                 Date: -.!l};. --;J-




     2   A copy of the e-mait will be maintained in the cnse [ile.
